Audit of USAID/Guinea's
Recipient Audit Universe


  Report No. 7-675-01-003-P
        May 4, 2001




     Dakar, Senegal
USAID
OFFICE OF INSPECTOR
GENERAL
                            Audit of
                    USAID/Guinea’s
            Recipient Audit Universe


           Audit Report No. 7-675-01-003-P

                                May 4, 2001
                             Dakar, Senegal




                                 U.S. Agency for
                      International Development
U.S. AGENCY FOR
 INTERNATIONAL
   Development

RIG/Dakar

May 4, 2001

MEMORANDUM
FOR:              Harry Birnholz, USAID/Guinea Director

FROM:             Henry Barrett, Regional Inspector General/Dakar /S/

SUBJECT:          Audit of USAID/Guinea's Recipient Audit Universe (Report No.
                  7-675-01-003-P)



This memorandum is our report on the subject audit. We have considered your
comments to the draft report and have included them in their entirety as Appendix II.
The report contains no recommendations for your action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1
Table of                                                                 Page
Contents
           Summary of Results                                              3

           Background                                                      3

           Audit Objective

                  Was the audit universe for USAID/Guinea accurate and
                  were required audits conducted in a timely manner?       4

           Audit Findings                                                   4

           Management Comments and Our Evaluation                           6

           Appendices

                  Scope and Methodology                                    7

                  USAID/Guinea’s Management Comments                       9




                                                                                2
Summary of   Financial audits of contracts, grants, and cooperative agreements are a primary
Results      basis for effective management and control of USAID’s program expenditures.
             We conducted the audit as part of a worldwide Office of Inspector General audit
             to confirm that this important management and control system was in place and
             functioning as intended.

             We designed the audit to determine whether USAID/Guinea had accurately
             defined its audit universe and ensured that required audits were conducted in a
             timely manner. The audit disclosed that USAID/Guinea had developed and
             maintained an audit universe that was accurate and complete. There were,
             however, no non-U.S. based recipients with reported expenditures in amounts
             that were subject to audit.

             Mission management agreed with the findings in this report.


Background   Financial audits of contracts, grants, and cooperative agreements are a primary
             basis for effective management and control of USAID’s program expenditures.
             These audits are designed to provide USAID management reasonable
             assurance that transactions are properly recorded and accounted for; laws and
             regulations, and provisions of contract or grant agreements are complied with;
             and USAID-financed funds, property and other assets are safeguarded against
             unauthorized use or disposition.

             In response to congressional concerns, USAID has taken an active role in
             recent years, using audits as a management tool, to improve financial
             accountability of its programs. During 1991 and 1992, USAID revised its
             standard provisions for its contracts and grants, requiring annual audits of non-
             U.S. organizations disbursing USAID funds of $25,000 or more. The
             threshold was increased to $100,000 in May 1994, and to $300,000 in July
             1998.

             In addition, USAID issued a general notice in April 1992 defining the role of
             USAID missions in obtaining audits of their contracts, grants and cooperative
             agreements with non-U.S. organizations. In May 1996, these requirements
             were incorporated into Chapter 591 of USAID’s Automated Directives System
             (ADS), which requires USAID missions to (1) establish an audit management
             program; (2) maintain an audit inventory database; and (3) have audits done
             for non-U.S. grants, contracts and cooperative agreements that meet the audit
             threshold.

             These initiatives have important consequences in preventing misuse of USAID
             development funds and in facilitating timely corrective actions by USAID.
             Lack of adequate audit coverage constitutes an unacceptable risk because,



                                                                                               3
                  without such a control mechanism, financial accountability of program
                  expenditures cannot be reasonably assured.

                  In March 1995, the Office of Inspector General (OIG) issued Audit Report No.
                  3-000-95-009 on USAID’s implementation of USAID’s 1992 initiative to
                  improve the financial management of its programs. The report concluded that
                  most missions had implemented the general requirements of the financial audit
                  management program and established audit inventory databases. However,
                  complete coverage was impaired as a result of obstacles arising from host
                  government restrictions and local audit firm capabilities. Additionally, Audit
                  Report No. 9-000-98-002-F was issued in March 1998 on USAID missions’
                  roles in obtaining audits of their contracts, grants, and cooperative agreements.
                  The report concluded that, although the majority of USAID missions reviewed
                  generally obtained audits of their contracts, grants, and cooperative agreements
                  as required by the ADS, a significant number of required audits were not
                  completed at several missions.

                  In May 1999, OIG management decided to verify the accuracy of USAID
                  missions’ recipient audit universe worldwide over a period of three years
                  because the lack of audit coverage was perceived as a high-risk area.



Audit Objective   As part of our fiscal year 2001 annual audit program, we performed this audit
                  to answer the following audit objective:

                  Was the audit universe for USAID/Guinea accurate and were required
                  audits conducted in a timely manner?

                  Appendix I contains a complete discussion of the scope and methodology for the
                  audit.



Audit Findings    Was the audit universe for USAID/Guinea accurate and were required
                  audits conducted in a timely manner?

                  The audit disclosed that USAID/Guinea developed and maintained an audit
                  universe that was accurate and complete. However, the audit universe
                  indicated that there were no required audits to be conducted of non-U.S. based
                  recipients.

                  As of September 30, 1999, USAID/Guinea reported expenditures of
                  approximately $15 million in program funds for contracts, grants, cooperative
                  agreements, and other miscellaneous types of documents. Of that amount,
                  there were no expenditures reported by non-U.S. organizations in amounts that



                                                                                                   4
were subject to audit. All documents on the inventory with reported
expenditures over the audit threshold of $300,000 were with U.S. based
organizations that were not required to have local audits. The following table
provides a breakdown of the reported expenditures by type of document.

                          Table of USAID/Guinea
             Fiscal Year 1999 Reported Program Expenditures
                        And Number of Documents


                 Type of                          U.S.
                Document                  And Non-U.S. Recipients

            Contracts                            $ 1,015,151                  31

            Grants                                   7,267,738                12
            Cooperative
            Agreements                               3,053,000                 3

            Other*                                   3,659,343               190

            Total                                $ 14,995,232                236

             Note: *Includes purchase orders, self-help agreements, travel
             documents, etc.



To comply with the requirements of ADS Chapter 591, USAID/Guinea took
the following actions to implement an audit management system:

! issued four mission orders to provide mission-specific guidance for the
audit management program;

! established a management control review committee to monitor the status
of the Mission’s audit program and to assure that its audit responsibilities were
carried out;

! designated an audit management officer to coordinate and monitor the
Mission’s financial audit program and follow up on implementation of
recipient-contracted audit recommendations;

!   included required audit clauses and budgeted funds for audits; and

! maintained an accurate annual audit inventory/plan of contracts, grants, and
cooperative agreements.




                                                                                   5
                 In addition, as part of its reporting requirements under the Federal Managers’
                 Financial Integrity Act of 1982, USAID/Guinea directed an evaluation of its
                 system of management controls in effect during the fiscal year ended
                 September 30, 1999, that included a review of its audit management system.



Management       Mission management concurred with the contents of the report.
Comments and
Our Evaluation




                                                                                                  6
                                                                               Appendix I


Scope and     Scope
Methodology
              The audit was conducted in accordance with generally accepted government
              auditing standards and assessed whether: (1) USAID/Guinea’s audit universe was
              complete and accurate, and (2) required audits were done in a timely manner.

              Fieldwork was performed at USAID/Guinea in Conakry, Guinea from January 22
              to February 2, 2001 and covered approximately $15 million in reported USAID
              expenditures during fiscal year ended September 30, 1999. The audit scope
              included:

              !   reviewing the Mission’s audit management program and related documents,

              !   interviewing cognizant Mission officials, and

              ! comparing the Mission’s audit inventory and audit plan to data contained in
              the Mission Accounting and Control System. (MACS).

              In comparing the audit inventory to the data in the MACS, we determined (1)
              total expenditures reported for all grants, contracts and cooperative agreements
              (U.S. and non-U.S.) for the fiscal year ended September 30, 1999, and (2) total
              expenditures reported for non-U.S. organizations in excess of $300,000 for the
              respective organizations’ fiscal year closest to USAID’s fiscal year ended
              September 30, 1999.

              The principal audit criteria were Chapter 591 of USAID’s Automated Directives
              System (ADS) and the OIG’s “Guidelines for Financial Audits Contracted by
              Foreign Recipients” (Guidelines) dated July 1998.

              Methodology

              To assess management controls, the methodology included (1) reviewing the
              Mission’s audit inventory database to determine if it contained the information
              needed to identify and track required audits, (2) examining appropriate
              documentation, and (3) conducting interviews with cognizant officials to
              determine whether the Mission had met its responsibilities established by ADS
              Chapter 591 and the Guidelines.

              To answer our audit objective, we identified the universe of USAID/Guinea’s
              contracts, grants and cooperative agreements. We then determined the number
              and dollar amounts of all agreements with non-U.S. organizations subject to
              audit coverage at September 30, 1999 using the Mission’s contract files and the
              MACS. For the period under review, we did not find any non-U.S. recipients
              subject to audit.



                                                                                                 7
We did not assess the reliability of data contained in USAID/Guinea’s MACS.
Additionally, due to the small size of the audit universe, we did not use a
materiality threshold and considered one exception as significant for reporting
purposes.




                                                                                  8
                                                                       Appendix II




Management
Comments




                                                        USAID/GUINEA




         Memo
               To:           Philip Horschler, RIG

               From:         Harry Birnholz, Director /S/

               CC:           Mamadou Barry, Financial Analyst & AMO

               Date:         05/03/01

               Re:           Recipient Audit Universe Draft Report


         USAID/Guinea concurs with the finding of the subject audit.




                                                                                     9
